 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
 GOOD SAMARITAN HOSPITAL FOR
 CALENDAR YEARS 2010 AND 2011



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Lori A. Ahlstrand
                                                Regional Inspector General
                                                    for Audit Services

                                                         July 2014
                                                       A-09-13-02008
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Good Samaritan Hospital did not fully comply with Medicare requirements for billing
 inpatient and outpatient services, resulting in overpayments of approximately $904,000
 over 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represented 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

Our objective was to determine whether Good Samaritan Hospital (the Hospital) complied with
Medicare requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is an acute-care hospital located in Los Angeles, California. Medicare paid the
Hospital approximately $174 million for 9,847 inpatient and 46,996 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011.

Our audit covered $2,438,725 in Medicare payments to the Hospital for 132 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of
110 inpatient and 22 outpatient claims and had dates of service in CY 2010 or CY 2011.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 48 of the 132 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 84 claims, resulting in overpayments of $904,164.
Specifically, 65 inpatient claims had billing errors, resulting in overpayments of $874,360, and
19 outpatient claims had billing errors, resulting in overpayments of $29,804. These errors
occurred primarily because the Hospital did not have adequate controls to prevent the incorrect
billing of Medicare claims within the selected risk areas that contained errors.



Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                              i
WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $904,164, consisting of $874,360 in overpayments for
        the incorrectly billed inpatient claims and $29,804 in overpayments for the incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS AND OUR RESPONSE

In written comments on our draft report, the Hospital agreed with all of our findings except for
one finding related to inpatient claims that should have been billed as outpatient or outpatient
with observation services. The Hospital’s comments indicated that it had refunded $566,172 of
the $904,164 in overpayments. However, for 20 of the 48 inpatient claims, the Hospital
disagreed that the inpatient status was not supported by adequate documentation and did not
agree to refund the overpayments. The Hospital stated that it obtained the services of outside,
independent medical review experts, who evaluated each claim and provided detailed
explanations of the patient factors that supported the inpatient status. For our other findings, the
Hospital provided information on corrective actions that it had taken.

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We used an independent medical review contractor to determine whether the
20 inpatient claims met medical necessity requirements. The contractor examined all of the
medical records and documentation submitted and carefully considered this information to
determine whether the Hospital billed the inpatient claims in compliance with Medicare
requirements. On the basis of the contractor’s conclusions, we determined that the Hospital
should have billed the inpatient claims as outpatient or outpatient with observation services.




Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                                  ii
                                                    TABLE OF CONTENTS

INTRODUCTION .........................................................................................................................1

      Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          The Medicare Program ..................................................................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Outpatient Prospective Payment System ........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................2
          Medicare Requirements for Hospital Claims and Payments .........................................2
          Good Samaritan Hospital ..............................................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................3

      Billing Errors Associated With Inpatient Claims ...................................................................4
            Incorrect Billing of Medicare Part A for Beneficiary Stays That Should Have
              Been Billed as Outpatient or Outpatient With Observation Services ........................4
            Incorrect Diagnosis-Related Groups .............................................................................4
            Manufacturer Credits for Replaced Medical Devices Not Reported ............................4

       Billing Errors Associated With Outpatient Claims................................................................5
             Incorrect Billing of Number of Units ...........................................................................5
             Incorrect Billing of Intensity-Modulated Radiation Therapy Planning Services ..........5

RECOMMENDATIONS ...............................................................................................................6

HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ..............6

      Hospital Comments ................................................................................................................6

      Office of Inspector General Response....................................................................................6

APPENDIXES

        A: Audit Scope and Methodology .......................................................................................8

        B: Results of Review by Risk Area ...................................................................................10

        C: Hospital Comments .......................................................................................................11




Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                                                                           iii
                                             INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represented 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Good Samaritan Hospital (the Hospital) complied with
Medicare requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000. Under the OPPS, Medicare pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification (APC). CMS uses Healthcare Common Procedure Coding System
(HCPCS) codes and descriptors to identify and group the services within each APC group. 1 All

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                                               1
services and items within an APC group are comparable clinically and require comparable
resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient claims related to hospital-acquired conditions and present-on-admission
        indicator reporting,

    •   inpatient claims paid in excess of charges,

    •   inpatient claims billed for kyphoplasty services,

    •   inpatient claims billed with high-severity-level DRG codes,

    •   inpatient mechanical ventilation,

    •   inpatient manufacturer credits for replaced medical devices,

    •   inpatient claims with payments greater than $150,000,

    •   outpatient surgeries billed with units greater than one,

    •   outpatient intensity-modulated radiation therapy (IMRT) planning services, and

    •   outpatient claims billed with evaluation and management (E&M) services.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, payments may
not be made to any provider of services or other person without information necessary to
determine the amount due the provider (the Act, § 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).




Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                                 2
The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).

Good Samaritan Hospital

The Hospital is an acute-care hospital located in Los Angeles, California. Medicare paid the
Hospital approximately $174 million for 9,847 inpatient and 46,996 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011. 2

HOW WE CONDUCTED THIS REVIEW

Our audit covered $2,438,725 in Medicare payments to the Hospital for 132 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of
110 inpatient and 22 outpatient claims and had dates of service in CY 2010 or CY 2011. We
focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected
41 inpatient and 3 outpatient claims to focused medical review to determine whether the services
were medically necessary and/or met coding requirements. This report focuses on selected risk
areas and does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

For the details of our audit scope and methodology, see Appendix A.

                                                  FINDINGS

The Hospital complied with Medicare billing requirements for 48 of the 132 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 84 claims, resulting in overpayments of $904,164.
Specifically, 65 inpatient claims had billing errors, resulting in overpayments of $874,360, and
19 outpatient claims had billing errors, resulting in overpayments of $29,804. These errors
occurred primarily because the Hospital did not have adequate controls to prevent the incorrect
billing of Medicare claims within the selected risk areas that contained errors. For the results of
our review by risk area, see Appendix B.




2
    These data came from CMS’s National Claims History file.



Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                                 3
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 65 of 110 selected inpatient claims, which resulted
in overpayments of $874,360.

Incorrect Billing of Medicare Part A for Beneficiary Stays That Should Have Been Billed
as Outpatient or Outpatient With Observation Services

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)).

For 48 of 110 selected inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that it should have billed as outpatient or outpatient with observation services.
The Hospital stated that these errors occurred because “at the time the cases under review were
billed, we had not put into place the requirements that the records needed to include specific
documentation to support the clinical decisions to admit patients for inpatient care.” As a result
of these errors, the Hospital received overpayments of $664,447. 3

Incorrect Diagnosis-Related Groups

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)). The Manual states: “In order to be processed
correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 12 of 110 selected inpatient claims, the Hospital billed Medicare with incorrect DRGs. For
these claims, to determine the DRG, the Hospital used a diagnosis code that was incorrect. For
example, for one claim, the Hospital billed a DRG for use of a mechanical ventilator for 96 hours
or more rather than billing the DRG for use of a mechanical ventilator for fewer than 96 hours.
The Hospital stated that human error caused the incorrect diagnosis code to be selected. As a
result of these errors, the Hospital received overpayments of $182,613.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the cost of the device, or (3) the provider receives a credit equal to 50 percent or more
of the device cost (42 CFR § 412.89(a)). The Manual states that to correctly bill for a
replacement device that was provided with a credit, hospitals must code Medicare claims with a
combination of condition code 49 or 50 (which identifies the replacement device) and value code

3
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor before issuance of our report.


Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                                              4
“FD” (which identifies the amount of the credit or cost reduction received by the hospital for the
replaced device) (chapter 3, § 100.8).

For 5 of 110 selected inpatient claims, the Hospital received reportable medical device credits
from a manufacturer but did not adjust its inpatient claims with the proper condition and value
codes to reduce payment as required. The Hospital stated that these errors were a result of
confusion in the process for rebilling when credits were received for separate components. As a
result of these errors, the Hospital received overpayments of $27,300.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 19 of 22 selected outpatient claims, which resulted
in overpayments of $29,804.

Incorrect Billing of Number of Units

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act, § 1833(e)). The
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). In addition, the Manual states: “The definition of service
units … is the number of times the service or procedure being reported was performed”
(chapter 4, § 20.4).

For 16 of 22 selected outpatient claims, the Hospital submitted claims to Medicare with the
incorrect number of units of service for a surgical procedure. For example, for one claim, rather
than billing one unit for a procedure performed on the right breast, the Hospital billed five units.
The Hospital stated that human error was the cause of the incorrect billing. As a result of these
errors, the Hospital received overpayments of $29,206.

Incorrect Billing of Intensity-Modulated Radiation Therapy Planning Services

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). The Manual also states that certain services should not be
billed when they are performed as part of developing an IMRT plan (chapter 4, § 200.3.2).

For 3 of 22 selected outpatient claims, the Hospital incorrectly billed Medicare for services that
were already included in the payment for IMRT planning services billed on the same claim.
These services were performed as part of developing an IMRT plan and should not have been
billed in addition to the HCPCS code for IMRT planning. The Hospital stated that its
understanding was that these services could be separately billed from IMRT planning services if
they were provided on a different date. As a result of these errors, the Hospital received
overpayments of $598.




Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                                  5
                                      RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $904,164, consisting of $874,360 in overpayments for
        the incorrectly billed inpatient claims and $29,804 in overpayments for the incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

   HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital agreed with all of our findings except for
one finding related to inpatient claims that should have been billed as outpatient or outpatient
with observation services. The Hospital’s comments indicated that it had refunded $566,172 of
the $904,164 in overpayments. For 20 of the 48 inpatient claims, with $308,844 in remaining
overpayments, the Hospital disagreed that the inpatient status was not supported by adequate
documentation. For our other findings, the Hospital provided information on corrective actions
that it had taken. The Hospital’s comments are included in their entirety as Appendix C.

HOSPITAL COMMENTS

Regarding our finding on incorrect billing of Medicare Part A for beneficiary stays that should
have been billed as outpatient or outpatient with observation services, the Hospital had the
following comments:

    •   The Hospital stated that it obtained the services of outside, independent medical review
        experts, who evaluated each claim and provided detailed explanations of the patient
        factors that supported the inpatient status. The Hospital stated that it had not agreed to
        refund the overpayments because it believed that the inpatient status for the 20 claims
        was justified.

    •   The Hospital stated that although we suggested in our report that it could bill Medicare
        Part B for the disallowed inpatient stays, these cases are long past the 12-month billing
        deadline. The Hospital also stated that, as a result, it did not have the option of securing
        any payment other than the minimal Part B payment for ancillary tests because the billing
        for the procedure itself is disallowed.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We used an independent medical review contractor to determine whether the
20 inpatient claims met medical necessity requirements. The contractor examined all of the
medical records and documentation submitted and carefully considered this information to
determine whether the Hospital billed the inpatient claims in compliance with Medicare




Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                                6
requirements. On the basis of the contractor’s conclusions, we determined that the Hospital
should have billed the inpatient claims as outpatient or outpatient with observation services.

With respect to the Hospital’s comment that it did not have the option of securing any payment
for the 20 disallowed claims other than the minimal Part B payment for ancillary tests, we
acknowledge its comments; however, the rebilling issue is beyond the scope of our audit.
During our audit, CMS issued the final regulations on payment policies (78 Fed. Reg. 160
(Aug. 19, 2013)). The Hospital should contact its Medicare contractor for rebilling instructions.




Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                               7
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $2,438,725 in Medicare payments to the Hospital for 132 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of
110 inpatient and 22 outpatient claims and had dates of service in CY 2010 or CY 2011 (audit
period).

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected
41 inpatient and 3 outpatient claims to focused medical review to determine whether the services
were medically necessary and/or met coding requirements.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from December 2012 to November 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for the audit period;

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 132 claims (110 inpatient and 22 outpatient claims) for detailed
        review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been canceled or adjusted;



Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                                8
    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

    •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
        claims;

    •   used an independent medical review contractor and CMS’s Medicare administrative
        contractor to determine whether 41 selected inpatient and 3 selected outpatient claims,
        respectively, met medical necessity and/or coding requirements;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                             9
                         APPENDIX B: RESULTS OF REVIEW BY RISK AREA
                                                                                                  Claims
                                                                                Value of           With           Value of
                                                              Selected          Selected          Over-             Over-
                     Risk Area                                Claims            Claims           payments         payments
Inpatient

Short Stays                                                       54               $858,061          43             $545,604
Claims Related to Hospital-Acquired Conditions
                                                                  28                577,696            5                  78,492
and Present-on-Admission Indicator Reporting
Claims Paid in Excess of Charges                                   2                123,163            1                  74,523

Claims Billed for Kyphoplasty Services                             4                  69,660           4                  56,808
Claims Billed With High-Severity-Level DRG
                                                                  13                185,137            6                  54,555
Codes
Mechanical Ventilation                                             3                131,542            1                  37,078
Manufacturer Credits for Replaced Medical
                                                                   5                216,454            5                  27,300
Devices
Claims With Payments Greater Than $150,000                         1                205,691            0                      0

 Inpatient Totals                                               110              $2,367,404          65             $874,360


Outpatient

Surgeries Billed With Units Greater Than One                      16                $64,365          16               $29,206
Intensity-Modulated Radiation Therapy Planning
                                                                   3                   5,394           3                    598
Services
Claims Billed With Evaluation and Management
                                                                   3                   1,562           0                      0
Services
 Outpatient Totals                                                22                $71,321          19               $29,804


 Inpatient and Outpatient Totals                                132              $2,438,725          84             $904,164

     Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
     outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
     billing errors we found at the Hospital. Because we have organized the information differently, the information in
     the individual risk areas in this table does not match precisely this report’s findings.




     Medicare Compliance Review of Good Samaritan Hospital (A-09-13-02008)                                            10
                              APPENDIX C: HOSPITAL COMMENTS 



         Good 

         Samaritan 

         Hospital 




   Aprii2I, 20I4

   Lori A. Ahlstrand
   Regional Inspector General for Audit Services
   Office of Audit Services, Region IX
   90 -7111 Street, Suite 3-650
   San Francisco CA 94103

   Re:     Report No. A-09-I3-02008

   Dear Ms Ahlstrand:

   Thank you for providing Good Samaritan Hospital the draft Medicare Compliance Review ofGood Samaritan
   Hospital for Calendars Years 2010 and 201 I, and allowing us to comment on the report.

   We understand that Good Samaritan Hospital was selected for a hospital compliance review and that all its
   Medicare claims for the calendar years 20IO and 20II, totaling $I74 million for 9,847 inpatient claims and
   46,996 outpatient claims, were analyzed using computer matching, data mining and data analysis for the purpose
   of identifying those claims judged to be at risk for non-compliance with Medicare billing requirements. From
   those claims, we understand 132 claims were "judgmentally selected as potentially at risk for billing errors,"
   including II 0 inpatient and 22 outpatient claims.

   Good Samaritan was presented with a list of those claims, and during the process of the audit, had the chance to
   go over the issues spotted by the Office of Inspector General ("OIG") auditors. We appreciated the OIG audit
   team members' professional review and discussions regarding the billing issues.

   Through this process, we agreed with the OIG auditors that 48 of the I32 claims did not have any billing errors.
   We also agreed that 19 of the 22 outpatient claims had billing errors resulting in an overpayment in the amount of
   $29,804. We wish respectfully to point out that while we strive for an error free billing process, we do believe
   that 19 errors out of 46, 996 outpatient claims is a low error rate ofjust under 0.04%. We will review the
   specifics below, but in short: I6 ofthe 19 errors accounting for $29,206 of the outpatient total occurred when
   outpatient units were mistakenly billed as multiple units rather than I unit and we have built in a technical
   correction that will prevent that error in the future; the remaining 3 errors were in billing certain evaluation
   services separately from ongoing radiation treatment planning, which resulted in an over-payment in the amount
   of $598, an error that will not recur now that we understand the limits on separately billing certain evaluation
   services from the IMRT planning.

   The more serious issues arose in 65 inpatient claims in which the OIG alleged billing errors. There were 54, or
   most of the questioned inpatient claims, arose from the admission ofcardiology patients who had cardiology
   interventions and were admitted for short stay pursuant to the order of their attending physician. We understand
   the OIG did not raise any question whatsoever about the necessity of the cardiac procedure nor the quality of care
   received by these patients, but instead questioned the short stay on the grounds that the patient should not have
   been admitted to inpatient status but rather should have been admitted to outpatient status.




Medicare Compliance Review ofGood Samaritan Hospital (A -09-1 3-02 008)                                               JJ
  Good Samaritan Hospital has an extremely well regarded cardiology program, which provides services not only
  for the immediate community, but for a far larger area because patients are referred due to the excellence of the
  services and the program's reputation. As a tertiary referral service, the Hospital treats a disproportionate number
  of complicated patients because their cardiologists have detennined the high risk patients with co-morbidities
  cannot be safely treated in the local community setting. The Hospital also had a large number of one day
  inpatient stays due to the high volume ofcomplex cardiology interventional procedures performed at the Hospital.

  We believe that confusion continues to exist about when inpatient status is warranted versus outpatient (whether
  in recovery or in observation), as evidenced by the Centers for Medicare and Medicaid (CMS) issuance of the
  "Two Midnight" rule. The new rule seeks to resolve the inpatient-outpatient status confusion by adopting a new
  presumption for inpatient status for those patients expected to stay two midnights or more. However, even that
  new rule does not presume that a one day length of stay can never qualifY for inpatien t status. CMS has also tried
  to help address the confusion in the industry by adopting standards for what documentation is required to support
  the inpatient status.

  As hospitals like Good Samaritan have been seeking to assure full compliance with the Medicare law on what
  constirutes a medically necessary inpatient admission, there has been an evolution in the expectations for when an
  inpatient admission will be accepted under the Medicare standards and what documentation is required in the
  chart to support the inpatient billing.

  With respect to the rest of the inpatient errors, in short 12 of the 65 inpatient errors occurred due to using the
  wrong diagnosis related group code and we have instituted a new supervisory audit and review for the coding
  process to strive to eliminate DRG coding errors; and 3 of the 65 inpatient errors occurred due to the failure to
  correctly report manufacturer's credits on components of implanted devices and we have corrected our billing
  procedures to report such credits when they exceed 50% of the cost of a component even when they do not exceed
  50% of the cost of the total implant.

  None of the errors are attributable to any wrongful intent. Many of the errors resulted from human error (the
  entry of the wrong DRG in 12 cases or the entry of multiple outpatient units in 16 outpatient cases), which Good
  Samaritan will strive to prevent and eliminate; several errors resulted from honest misunderstandings about the
  billing rules (i.e., the 5 cases in which manufacturer credits for sub-parts of the replaced devices were not reported
  and 3 cases in which evaluation services were improperly billed separately from the radiation oncology planning
  process). And as mentioned above, most ofthe errors and the majority of the alleged overpayments can be
  attributed to the debate on what constitutes the documented indications to support an inpatient admission when
  the patient stays just a short time.

  In the following section, we offer our specific responses to the five categories of billing errors identified during
  the audit.

  BILLING ERRORS ASSOCIATED WITH INPATI ENT CLAIMS

  Billing for lnpntient Medicnre Part A Rather than Outpatient (With or Without Observation)

  In 48 cases, the OIG audit team concluded that the patient should not have been admitted to the inpatient unit, but
  rather should have been admitted to outpatient status. We carefully reviewed each case. In 28 of the cases, we
  agreed with the assessment that the chart did not include adequate documentation to support the inpatient status.
  However, in 20 of the cases, we disagreed.


  2




.Medicare Compliance Review ofGood SconariianHospital ~-09-13-02008)                                                       12
  Before disagreeing, we obtained the services of outside, independent medical review experts who were asked to
  evaluate each chart and detennine whether inpatient status was supported. We then provided the results of the
  review to the OIG audit team, including the detailed explanations from the outside, independent medical rev iew
  experts of the factors about the particular patient that supported the inpatient status. The OIG has disagreed still,
  and at this point, we have not agreed to refund the alleged overpayments because we believe the inpatient status
  was justified.

  We also should point out that in a footnote, the OIG has suggested that the Hospital could still bill Medicare Part
  B for the disallowed inpatient stays. However, these cases are from 2010 and 20 II and we are long past the
  twelve month billing deadline that allows the Hospital to obtain payment for the sophisticated cardiology
  interventional procedures these patients had. Thus, under the current rules, we do not have the option of securing
  any payment other than the minimal Part B payment for ancillary tests (mostly lab tests) as the billing for the
  procedure itself is disallowed. The financial impact is particularly unfair in these cases since there is no question
  whatsoever that the patient had a medically indicated procedure and received high quality care that in many cases
  was life-saving.

  In the 28 of cases in which there was agreement inpatient status was not supported by the documentation in the
  chart, the Hospital has refunded $326,454.92 in overpayments. It also instituted a careful training program for
  the cardiologists and other admitting physicians, to assure that the doctors understand the expectations for when
  inpatient admission will be allowed and reimbursed under the Medicare program. Hospital staff work with the
  doctors on assuring the charts include the documentation of the physician's findings and expectation regarding the
  patient's need for inpatient care. If the patient does not qualify for inpatient status, there is a review of whether
  outpatient observation is warranted or if the patient should just remain in outpatient. And the staff and doctors are
  receiving new training based upon the newly enacted CMS "Two Midnight" rule.

  Incorrect Diagnosis Related Groups

  In 12 cases, the Hospital had entered incorrect DRG payments, and it has refunded the overpayment in the amount
  of$182,613. In all cases, human error caused the coding mistake. For example, in the case of the miscoding for
  the ventilator patient, the mechanical ventilator was not used for 96, but rather 92 hours because the patient died.
  In other cases, the coding staff simply missed infonnation in the chart. We have instituted a supervisory audit for
  the coding staff to assure that the coding is correct.

  Manufacturer Credits for Replaced Medical Devices

   In 5 cases, manufacturer credits for replaced devices or device components were not appropriately reported. We
  learned that the credit needed to be applied to each component and not to the total cost of the device and all
  components. In the past, we had not rebilled when the credit did not reach over 50% of the total cost of all
  components. As a result of this misunderstanding, rebilling was not completed as required when credits were
  received for separate components. The Hospital has corrected its billing for credits to address each component
  separately and has refunded the overbilled amount of$27,300.




  3




Medicare Compliance Review ofGood S amaritan Hospita l (A -09-13-02008)                                                   13
 BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

 Incorrect Number of Units

 In 16 cases, the Hospital billed outpatient services with multiple units rather than one unit. This was a result of
 human error. The Hospital adjusted its billing program so it prevents billing more than one unit for the outpatient
 services and has refunded the $29,206 in overpayments that resulted from this error.

 Incorrect Billing of Intensity-Modulated Radiation Therapy Planning Services

 In 3 cases the Hospital billed for imaging services provided on a different day than the date for the completion of
 the Intensity-Modulated Radiation Therapy (IMRT) plan. This resulted from a misunderstanding about when
 services can be separately billed from the IMRT planning code, based upon the guidance that has been provided
 that certain services can be billed separately from the planning. We understand the position that the imaging
 would be used in the planning and that only such imaging completed after the plan was completed would qualify
 for the separate planning. This error resulted from a misunderstanding of this rule, which has now been corrected.
 The Hospital has refunded the $598 in overpayment for this error.


 Again, we wish to emphasize our commitment to fully complying with all the Medicare laws and regulations. We
 learned from this review and promptly addressed any problems that we identified. And while we disagree with
 the OIG auditors on the propriety ofcertain ofthe cases they concluded should not be inpatient, we did institute a
 far more careful evaluation of the need for inpatient admission and the documentation to support the order. We
 be lieve the short stay issues has prompted a healthy debate about what Medicare should cover and what
 expectations are reasonable for retrospective denial ofpayment for services, and we appreciate the efforts ofCMS
 to bring clarity to that issue with the Two Midnight rule.

 We wish to thank your auditors for their courtesy and cooperation through this process .




           . Leeka   13.


 4




M edicare Compliance Review ofGood Samaritan Hospital (A -09-13-02 008)                                                14
